2-,°~ f
No.

saa^tsty

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)

vs.
State of (California

— RESPONDENT^

ON PETITION FOR A WRIT OF CERTIORARI TO

FILED
JUN 1 1 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

SUPREME miTRT OF P.AI.TFORNTA

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Ppgar Santana

AT.??48

(Your Name)

P.V.S.P./B-3-106; P.Q. Box.-850a
(Address)

Coal ingfli! C.a. Q.S210
(City, State, Zip Code)

N/A-Prisoner
(Phone Number)

Received
JUN 1 9 2020

i

QUESTION(S) PRESENTED

1. Does California Create a Liberty Interest to "Youthful-Offender's" when it Enacted
Legislation in Response/Remedy of a United States Supreme Court Decision (Miller
v. Alabama, (2012) 132 S^Ct. 2254, 2496) whem the State Law removes the "juvenile"
desigation recognizing the larger class as defined/decided in that Supreme Court
Decision by the Medical/Psychological Professional as concluding upon completion
of a youth's 25th year?
2. Does a State Habeas Corpus Petitioner make a Valid Constitutional challenge to the
fact that there are no reasoned sentencing schematic which delineates the differ­
ences in culpability for those juvenile's/youthful-offender's tried uhder adult law
when the enacted legislation (embracing Miller directly in its language) does not
return the "youth-offender" to the sentencing court for consideration of an age
appropriate sentecing consideration as the Miller Court instructed the State's must
do, and giving broad Sentencing Court Discretion in age appropriate sentencing
matters and not necessarily having to exact life sentences?

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[X] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Ralph Diaz: Secretary-CDCR, et al.,

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

All Case Law and/or Authorities Appear in
Appendix C State Habeas Corpuses.

STATUTES AND RULES

OTHER

TABLE OF CONTENTS

1

OPINIONS BELOW

; l- *
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

■5

CONCLUSION

6

INDEX TO APPENDICES
APPENDIX A

California Supreme Court Denial

APPENDIX B

Superior Court Opinion/Denial

APPENDIX C

State Writ's of Habeas Corpus-Superior-Appellate-Supreme

APPENDIX D
APPENDIX E
APPENDIX F

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
to

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[X] For cases from state courts:
’i

The opinion of the highest state court to review the merits appears at
Appendix A
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
Sacramento &>unty Superior
The opinion of the
appears at Appendix__B__ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ X| is unpublished.
1.

court

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[X] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix
A

3-18-20

[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) in
(date) on
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Due Process and Equal Protection Clauses of the 5th and 14th Amendments to the
United States Constitution; cal. Const. Article !j§28 subd. (f)(5);
Senate Bills 260, 261, and Assembly Bill 1308 (Youthful^Offender Enactments)

3

STATEMENT OF THE CASE
California Enacted a Series of youth-Offender Laws (SB260,261, and AB1308) in response
to the U.S. Supreme Court's Decision's related to juvenile sentencing under the Federal
Constitution. In fact, California broadened the definition of "juvenile" to encompass all
"Youthful-Offender's" until the end of their 25th year before concluded.
Petitioner perceived a Constitutional Violation in the protection/right's of youthful
offender's because it embraced/extended Miller's, but didn't exact it in mandating them tack
to the Sentencing Court as Miller did. Instead, California designated the matter to be rem­
edied by an unkowledgeable Parole Board in Sentencing factor's to decide the part that youth
played in the crime, and, not to possibly remove the Adult Sentence, but if a youth has made
a "showing of rehabilitation and maturity"ntoward release—both of which that have nothing
to do with a youth's commission of any specific crime punishable by an Adult/life sentence.
The Petitioner challenged the Constitutionality of the fact that therfcaare no sentencing gu­
idelines "differentiating 'youthful-offender" culpability from current 'Adult' Sentencing
culpability giving Sentencing Judge's the same discretion the U.S. Supreme Court did in juv­
enile sentencMg of adult crimes when a judge's expertise weighs the 'youthful' factors to
give a lower punishment length of confinement instead of a mandatory Adult Sentencing Guide­
line." (Please see Appendix C. the Habeas Corpus progression through the California Court's
for Exhaustion M claims) Petitioner hereby reincorporates bias challenge to and through the
State Court's for the full effect to the Statement of the Case herein.

4

REASONS FOR GRANTING THE PETITION

Ihlifornia has legislatively extended Miller v. Alabama, - et al, relied on there inj;
to Constitutionally protect juvenile and young criminal offender's tried or solelyiSen­
tenced as adults. In doing so, California gave petitioner ahreasonable expectation that
he is entitled to be resentenced with the Sentencing Court considering the diminished
capacity of his youth to the case specific-factor's of the crime he was convicted of,
and, that that sentence not necessarily result in the harshest sentence allowable as am
otherwise adult. California embraced Miller, citing it directly in the legislation it
enacted to the series of youth offender statute^, yet it gave no youth protection at
sentencing that Miller did, extolling the protection through the State's Parole Process.
Youth Offender's have finally had their Right's defined by the U.S. SupremeCQqu£f,\-tehimp,
brought their treatment under criminal statutes into the 21st Century by the profession-}'!
al's of Modern.Medical/Psychological Sciences in understanding their "Diminished Capacity"
in convicted criminal behavior—not excusing such behavior, but fitting it in to the
culpability process. California hhs watered down Miller by giving relief akin to a "PollTax" in order to exercise a Right to Vote (funny,here, a 16/17-year old youthful offenderis disenfranchised altogether to vote on those that say they deserve a life sentence))
in that they recognize a youthful offender should be treated differently under the same
laws aasadults, but leave it up to a Parole Board at the back end of their same Sentence
that never have to let them Parole/go home and California calls that "meaningful."
Truthfully, even Millet et al. forgot something else—not at question here but rel­
evant to the point, and would be remedied by express youth offender sentencing schematic
ics—the Supreme Court of the United States recognized that youth's have diminished cap­
acities, yet only applied that to punishment. What about that diminished capacity and
how it effects those same youth's in defending themselve's from that same criminal con­
viction. Again not a question here, and probably not in Miller either, but a Grant of
this Petition makes that question mostly go away by specifically prescribed sentences for
youth's£rather than the harshest/harsher adult sentences crime by crime that California
has left us with based on in prison behavior that has no bearing on the reasons the crime
was committed)where "diminished capacity" may shorten a punishment length at the point of
impact, not, after it has been, mandatorily handed down by the by the sentencing court
considering no evidence at all £otneither .‘possible sentence.

5

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

h

Cesar Santana AL2248
Date:

.lube

Pro Se.

2020.

6

